No. 19-238
IN THE
SUPREME COURT of the UNITED STATES

Lisa L. Watson, Petitioner
v.
Ryan McCarthy, Secretary of the Army

On the Petition for Rehearing
To The United States Court of Appeals for the Fifth Circuit

PETITION FOR REHEARING

Lisa L. Watson
Counsel of Record
Prose'
1700 Pendleton Square #11
Philadelphia, MS 39350
(601) 594-5024

PETITION FOR REHEARING

:

:

i

I have watched a lot of Law and Order in my lifetime. Although I am not an
• f

attorney or a judge, I do believe wholeheartedly that a potential jury, would not
ever convict based upon what he or she thinks or feels. This petition for Rehearing
is presented together with the certification of counsel that it is presented in good
faith and not for delay. I present this petition for a fair resolve of this case that
;

caused my family and me unquantifiable loss and suffering after I was wrongfully
terminated on July, 19, 2013. The following intervening circumstances of
i'

substantial and controlling effect remain.

Upon which grounds, I will state briefly

and distinctly for consideration of a rehearing from the Supreme Court of the
United States. Intervening Circumstances are:
1. The Agency has not provided the proof of my Initial Performance upon which
basis they fired me. During the EEO Investigative stage, all three superior
managers gave sworn testimony about my claim. Both Staley and Leal swear
I was given an initial. Allen obviously suffered amnesia on this question and
swear his answers blank. The failure to provide this documentation as
required by the McDonnell Douglas Burden Shift moots the termination and
everything that led up to it including the 90 day plan and the PIP. To date
the agency alleges my initial is that one paper audit, not 30 audits, that
contained my questions and was graded 67% and illegally called this my

1

initial and discriminately allowed it to serve as basis for the 90 day plan and
the PIP just 9 days after I filed the formal EEO.
2. The 90 day plan contained conflicting scores. The 90% performance standard
applied to me during the 90 days, after that period it was 93%. I pointed out
that my scores were just below the 90% and I didn’t trust the grading system
because after all I was placed on a 90 day quickly after the 67% grading from
one paper audit not 30 as the agency gave sworn testimony. I addressed
these concerns in both the USDC and the USCA.
3. The demotion to the dead audit was materially adverse because I experienced
a significant change in my responsibility and was no longer able to mediate
or prepare reports when compared to the live audit-although my pay stayed
the same. USDC pointed this out but did not change anything when I
brought this to their attention. USCA did not address this claim at all.
4. The CARA productivity report was requested from the Agency before the
summary judgement process began. This report will prove that one
comparant was able to work comp/overtime during Valentine’s weekend 2013
without meeting productivity. The agency claimed they denied my request to
work comp time because I did not meet productivity even with documented
credible and justifiable reasons on my log that limited my production. Saenz
did not meet productivity that Friday leading to Valentines, and maybe she
had credible reasons on her log. I didn’t see the log, but I did see the number
as 55 I believe when it should’ve been 80 to 90. Either way, whether her

2

!

reasons were credible or not when compared to my credible reasons. The fact
remains she was allowed to work and I was not. This is discrimination.
USDC said that the CARA reports would not be provided. USCA did not
respond to my request for this at all. To date, the Agency has not provided
this proof.
5. Prima facie facts were dismissed by both USDC and USCA. I presented two
comparants on my claim who were treated better than me in many ways.
USDC cited only one comparant. USCA did not consider my request to
review the district court’s omission of the other comparant. ,
6. USCA did not question the USDC about the failure of the agency to place all
auditors under a PIP after the physician workstation errors applied to all
auditors not just me. It is clearly documented in my case file that I marked
the Physician workstation audits as advised by a senior auditor., The PIP
was punitive and reprisal for filing the EEO.
7. The ICD-10 training became a punitive requirement and changed to based on
productivity while I was already under a bogus 90 day plan following the
failure of my so called initial performance, the single audit with questions at
67%. To date the agency has not proffered any nondiscriminatory reasons for
this exclusion.for me to attend the ICD 10 training when compared to my
peers, especially the two new hires that I listed as comparants who were
treated far better than me in many other ways, not just their ability to attend

3

this I CD-10 training in Dallas, Texas, after the Agency said there was no
money in the budget.

’

8. All 11 Recordings should have weighed on both USDC and USCA final
decision not just the 9 Recordings. It’s not fair for both these courts to agree
with the Agency in that the recordings won’t prove anything when I know in
fact they will. Any potential juror'will agree that it’s wrong to convict based
on abstract thoughts or feelings. It is clearly demonstrative in these over an
hour recordings that the Agency allowed the two eomparants to participate in
the paper audit training without the HIPPA Clearance. It is also evident that
the agency said they weren’t going to terminate me, but did anyway without
allowing me to finish reviewing Weeks 8 and 9 of the PIP. This action was
very prejudice. When I asked my manager on a subsequent recording I
reminded her of her previous statement oil the prior meeting when she said
she was not going to fire me,'she lied on the recording stating she never said .
that. The eomparants were able to receive aggressive training on the paper
audits from first day of hire without the HIPPA clearance. The recordings
will prove without question how the agency disparagingly required the •
HIPPA clearance for me when I mentioned to her that it was not my fault
that I was just sitting there for 3 months doing nothing and how I could’ve
been training on the paper audits the whole while. She responded she could
’ - •1 not do-that because! did not have HIPAA clearance. These over an hour long
recordings were not reviewed by neither USDC or USCA.

4

In Conclusion, I ask that the petition for rehearing is granted based on the material
fact my case deserves a conclusive decision based on ALL the actual evidence
(including witnesses) or the legitimate basis of the withholding of actual evidencenot thoughts or feelings and I have a bunch. For consideration, I am asking that
the relief items to include being stated whole and without reprisal: 1)
reinstatement with clean SF 50 into a promoted GS 14 Medical Record Admin GS
669 Title 6 with immediate option to retire with FULL benefits-family health
insurance, etc. due to the involuntary separation; 2) salary should be a minimum of
$107,807 per annum and more based on Title 6 SAA, special advance and
achievement-Bachelor of Science in Health Record Administration equals 1 step,
RHIA certification equals 1 step, CCS certification equals 1 step, Recognition of my
years of experience equals 1 step each for 5 year increments; 3) Service year pins
and appropriate certificate of awards for 15 years and 20 years retirement
respectively and mailed to the address contained; 4) Accrued sick leave balances
should be counted toward retirement years; 5) Accrued annual leave of 8 hours per
lost pay periods since July 2013 to current should be a single deposit in my last
DFAS account; 6) Lost pay/Front pay with interest from termination date to the
date of anticipated retirement pay deposit based on the lost position GS 9 step 10
Medical Record Admin/Auditor 669 series’ 7) Nonpecuniary damages is requested to
parallel to twice the amount of lost pay with interest or the maximum for the state
of Texas-last researched it was $750,000, (whichever is greater). Direct deposit of all
the above is requested to be made into the last DFAS payroll account on file. Please

5

mail any W2 or paper stub information to the address contained. Any documents
requiring my wet or electronic signature please send securely to the email account
listed and/or to the mailing address contained.

Respectfodiy submitted on this day, June 10, 2020,

Lisa L. Watson
1700 Pendleton Square #11
Philadelphia, MS 39350
(601) 594-5024

6

CERTIFICATION OF COUNSEL
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001 (USPS Priority Mailing June 10, 2020)
James E. Dingivan, Defendant’s Counsel
Assistant US Attorney
601 N.W. Loop 410, Suite 600
San Antonio, TX 78216 (3 Copies) (USPS Priority Mailing June 10, 2020)
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543 (USPS Priority Mailing June 10, 2020)

7

